U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

 Poor Management Oversight and Ineffective
   Incentives Leave NPOESS Program Well
         Over Budget and Behind Schedule

                   Audit Report No. OIG -17794-6-0001/May 2006




      Public Release

                               Office of Inspector General
                                              ~OF~
                                          't-<"         ~1!	
                                        !O:"
                                               ~
                                        l!i_'i:.
                                                   .
                                                               UNITED STATES DEPARTMENT OF COMMERCE
                                                               The Inspector General

   MAY   -8   2006
                                            ~ ",I
                                        \ ~"".unclit'          Washington, D.C. 20230




MEMORANDUM           FOR:     David A. Sampson
                              Deputy Secretary of Commerce

                             Conrad C. Lautenbacher, Jr.
                             Under Secretary of Commerce for Oceans and Atmosphere and
                             NOAA Administrator

                                                                                     .
FROM:
                              JohnnieE. Fr~                            .~I   /\~
SUBJECT:	                     Poor Manageme t ~ rsight and Ineffective Ince~ves
                              and Behind Sche ule      ff
                              Leave NPOESS r ram Well Over Budget

                              Audit Report No. OIG-17794-6-0001l2006

Attached is the final report on our audit of select aspects of the National Polar-orbiting
Operational Environmental Satellite System (NPOESS). The objectives of our audit were to
determine (1) how problems with the NPOESS program are identified and communicated by the
contractor to the Integrated Program Office (IPO), and by the IPO to NOAA management, and
(2) whether award fees to the contractor are being administered effectively. Because of the
criticality ofthe Visible Infrared/imager Radiometer Suite (VIIRS) sensor and the problems
experienced with its development, our review focused on VIIRS issues as they affect NPOESS.

We found that the VIIRS problems were communicated by the prime contractor and VIIRS
subcontractor to the IPO and by the IPO, in turn, to the program's Executive Committee
(EXCOM), but the EXCOM did not effectively challenge the optimistic assessments of their
impact. We also found that the current award fee structure does not foster excellent performance
as was intended, with the result that the contractor is receiving excessive award fees for a
problem-plagued program. To address these areas, we recommend that NOAA work with
EXCOM to (1) obtain and review regular, independent evaluations of the status ofNPOESS that
thoroughly assess progress toward completing high-risk or otherwise critical tasks, (2) revise the
award fee plan to specify effective incentives for achieving program goals, and (3) segregate
responsibilities for program management and fee determination. The Executive Summary begins
on page i, and recommendations appear on pages 12 and 23.

We appreciate the level of attention and careful consideration that you and your staff took to
address our findings and recommendations. In accordance with DAO 213-5, please provide us
with the audit action plan for our review and concurrence addressing all of the report
recommendations within 60 days of this memorandum. If you would like to discuss the contents
of the report, please contact me at (202) 482-4661, or have your staff contact Allison Lerner,
Counsel to the Inspector General, at (202) 482-5992 or Judith Gordon, Assistant Inspector

General for Systems Evaluation, at (202) 482-6186.                                       ~

                                                                                         ~~

                                                                                          ~OFCOMMERc$
Attachment

cc: Mack Cato, Director, Audit, Internal Control, and Information Management Office
U.S. Department of Commerce                                                                                       OIG-17794-6-0001

Office of Inspector General                                                                                              May 2006




                                                          CONTENTS
                                                                                                                      Page

EXECUTIVE SUMMARY ........................................................................................................ i


INTRODUCTION ...................................................................................................................... 1 


OBJECTIVES, SCOPE, AND METHODOLOGY.................................................................... 7 


FINDINGS AND RECOMMENDATIONS............................................................................... 8 


I.        EXCOM DID NOT EFFECTIVELY CHALLENGE OPTIMISTIC ASSESSMENTS
          OF THE IMPACT OF VIIRS PROBLEMS ON NPOESS ............................................ 8 

            Recommendation ..................................................................................................... 12 


II.       CONTRACTOR RECEIVED EXCESSIVE AWARD FEES FOR A PROBLEM
          PLAGUED PROGRAM ............................................................................................... 17 

            Recommendations................................................................................................... 24 



APPENDIXES

          Appendix I:   Excerpts from Monthly Reports to EXCOM
                        Describing VIIRS Related Issues 

          Appendix II: Glossary 

          Appendix III: Departmental Response 

          Appendix IV: NOAA’s Response 

U.S. Department of Commerce                                                                        OIG-17794-6-0001

Office of Inspector General                                                                               May 2006


                                          EXECUTIVE SUMMARY

 In 1994, by Presidential Decision Directive, the National Oceanic and Atmospheric
Administration (NOAA) merged its Polar Operational Environmental Satellite (POES) Program
with the Department of Defense’s (DoD) Defense Meteorological Satellite Program to produce
the National Polar-orbiting Operational Environmental Satellite System (NPOESS). NPOESS
was envisioned as a single state-of-the-art environmental and climate monitoring system that
would reduce duplication and significantly cut the cost of satellite operations engaged in
obtaining critical meteorological data. Early estimates for NPOESS put life-cycle costs at $6.5
billion and set a deadline of March 2008 for the first satellite launch.

The merger assigned shared management to NOAA and Defense, along with NASA, whose
experience with its own earth observing satellites is expected to improve NPOESS capabilities.
The three agencies formed an Integrated Program Office (IPO) within NOAA to manage
NPOESS and specified their individual responsibilities in a memorandum of agreement (MOA):
NOAA is charged with overall management of the converged system and provided the system
program director, who reports to the NOAA Administrator through the NOAA Assistant
Administrator for the National Environmental Satellite, Data and Information Service
(AA/NESDIS); DoD is the lead on acquisition matters; and NASA is the lead for promoting
transition to new technologies. Because of the importance of NPOESS to national and global
climate monitoring capabilities, overall program guidance was assigned to an executive
committee (EXCOM) made up of top leadership from each agency: the Under Secretary of
Commerce for Oceans and Atmosphere, the Under Secretary of Defense for Acquisition and
Technology, and the NASA Deputy Administrator. Though not stipulated in the MOA, the
agencies formed a steering committee to provide additional executive leadership: committee
members include the assistant administrator for NESDIS and his counterparts at DoD and
NASA, each of whom reports to the EXCOM member for their agency.

NPOESS acquisition plans call for, among other things, procurement of six satellites and
development of seven instruments, including the Visible/Infrared Imager Radiometer Suite
(VIIRS)1—one of four sensors considered critical to the program.

In August 2002, the IPO, using DoD’s contracting authority, awarded a single satellite
integration contract worth $4.5 billion to a prime contractor, incorporating previously-awarded
sensor contracts as subcontracts to the prime. The prime contract included an award fee incentive
arrangement to encourage outstanding performance, making it possible for the contractor to earn
up to 20 percent of total estimated costs. It set three fee types for the first phase of the contract:

         •	       Base fees are a guaranteed 2 percent of estimated costs, paid to the contractor
                  automatically each billing period. The total base fee pool is $57,190,785.

         •	       Award fees—capped at 13 percent of estimated contract cost or $369,294,988—
                  are tied to the government’s assessment of the contractor’s performance in three
                  broad areas: management, technical, and cost.
1
  VIIRS collects visible/infrared imagery and radiometric data. Data types include atmospheric, clouds, earth
radiation budget, clear-air land/water surfaces, sea surface temperature, ocean color, and low light visible imagery.


                                                           i
U.S. Department of Commerce                                                                 OIG-17794-6-0001

Office of Inspector General                                                                        May 2006


        •	       Mission success fees—capped at 5 percent of estimated contract cost or
                 $136,817,498—are tied to the contractor’s performance in meeting seven program
                 milestones (called “events”).

Criteria for the latter two fees are largely subjective. The plan also allows for unearned award
and mission fees from one billing period to be transferred to subsequent periods, giving the
contractor additional opportunities to earn them.

NPOESS Cost Overruns Cause Nunn-McCurdy Breach

The Nunn-McCurdy provision of the FY 1982 National Defense Authorization Act requires the
Secretary of Defense to notify Congress when unit costs for a major acquisition program such as
NPOESS grow by 15 percent2 over original baseline estimates. Should costs grow by 25 percent,
the act requires the Secretary of Defense to certify in writing that the program is essential to
national security, more cost-effective alternatives do not exist, the new cost estimate is
reasonable, and a management structure is in place to adequately manage and control unit costs.
Failure to provide this certification would terminate DoD’s involvement in the program. Such a
termination would have a devastating impact given that DoD provides half the program’s
funding.

On September 28, 2005, program officials notified Congress that NPOESS costs had grown by at
least 15 percent, largely because of problems with VIIRS. In November 2005, the Government
Accountability Office (GAO) informed Congress that life-cycle cost estimates for NPOESS are
likely to grow to $9.7 billion, and the launch of the first NPOESS satellite is at least 17 months
behind schedule.3 That same month, an estimate prepared for NPOESS by DoD’s Cost Analysis
Improvement Group showed that cost growth had exceeded 25 percent, triggering the Nunn-
McCurdy certification requirement.

At the time the Nunn-McCurdy breach was identified, NPOESS was more than $3 billion over
budget and well behind schedule, yet the contractor had received more than $123 million—84
percent—of available incentive payments. Our review uncovered two overarching management
and contract weaknesses that contributed to the unchecked cost and schedule overruns.

EXCOM Did Not Effectively Challenge Optimistic Assessments of the Impact of VIIRS
Problems on NPOESS

The information that the problems with the VIIRS sensor would delay the NPOESS launch took
observers of the program by surprise. We began our audit in part because of our own concerns
and those expressed by members of Congress and OMB staff that the IPO either did not identify
VIIRS problems or, if identified, did not bring them to the attention of EXCOM or other senior
management. In fact, the opposite was true. Although we found that information sharing was not
effective between the contractor, the VIIRS subcontractor, and the IPO at the outset of the

2
 10 U.S.C § 2433. 

3
 U.S. Government Accountability Office, November 2005. Polar-Orbiting Environmental Satellites—Technical 

Problems, Cost Increases, and Schedule Delays Trigger Need for Difficult Trade-off Decisions, GAO-06-249T. 

Washington, D.C: GAO.


                                                      ii
U.S. Department of Commerce                                                       OIG-17794-6-0001

Office of Inspector General                                                              May 2006


program, as VIIRS problems persisted, the IPO and prime contractor took steps to improve
communication, as well as increase their oversight of the VIIRS subcontractor. Beginning in
December 2002, the IPO submitted monthly status reports to EXCOM that consistently
described in explicit detail the growing costs and delays attributable to VIIRS development and
delivery. Yet until March 2005 the program director maintained that these problems would be
solved within available funding reserves and the overall NPOESS schedule. All the while, earned
value measures—which reflect program cost and schedule status against goals—were
deteriorating and funding reserves were being consumed at an unsustainable rate: by
August 2004, 92 percent of the contractor’s reserve ($135 million out of $147 million) had been
spent or allocated.

Despite mounting evidence of the seriousness of the VIIRS problems, EXCOM did not
effectively challenge the director’s optimistic assessments, and from May 2003 through
December 2004, convened only twice to consider the program’s status. Finally, in 2005, after the
IPO reported that VIIRS problems would indeed delay the first satellite launch, EXCOM began
meeting more often to investigate problems and their impact. Unfortunately, by then it was too
late to turn the program around: EXCOM’s long-term inattention had, in effect, postponed
critical evaluations and decisions needed to replan the program’s faltering elements and contain
cost and schedule overruns. (See page 8.)

After the Nunn-McCurdy review is complete and assuming the program is certified, EXCOM
must provide vigilant oversight to ensure NPOESS stays on track. The Commerce Deputy
Secretary should ensure that the Under Secretary for Oceans and Atmosphere in his role on the
EXCOM works with the other members of the EXCOM to obtain regular, independent
evaluations of the status of NPOESS, with a special focus on thoroughly assessing progress
toward completing high-risk or otherwise critical tasks. (See page 12.)

Contractor Received Excessive Award Fees for a Problem-Plagued Program.

Award fees are supposed to motivate a contractor to strive for excellence in such performance
areas as quality, timeliness, technical ingenuity, and cost-effective management. The NPOESS
experience, however, clearly shows that this incentive structure does not always result in the
intended caliber of performance. Despite ongoing, significant delays and cost overruns, the
prime contractor received close to the maximum fee amounts for the first five billing periods—
an average 90 percent of available incentive payments. At the end of period 4, for example,
earned value measures showed the Space Segment of the program, which includes the critical
VIIRS component, running 8 percent behind schedule and 16 percent over budget. VIIRS itself
was 12 percent behind schedule and approximately 30 percent over budget. Nevertheless, the
contractor received 92 percent of available award fees. By the end of period 5, the Space
Segment was 9 percent behind schedule and 23 percent over budget, and the contractor even
warned that it was unlikely to meet the dates for critical design review and first launch. Yet it
received 82 percent of available award fees. It was only in period 6—which covered the 6
months prior to the Nunn-McCurdy breach—that the contractor’s performance was rated
“unsatisfactory.” Even so, the prime received 48 percent of the potential fee amount—$10.7
million. (See page 17.)




                                                iii
U.S. Department of Commerce                                                           OIG-17794-6-0001

Office of Inspector General                                                                  May 2006


These payments appear excessive and reflect an award fee plan whose evaluation criteria do not
sufficiently focus on the completion of the most critical or high-risk tasks. It allows incentive
payments for poor performance and, by rolling over unearned fee amounts from one period to
another, gives the contractor multiple opportunities to earn incentive dollars. In addition, the
potential fee pool of 20 percent is atypical: less than 1 percent of DoD award fee contracts
recently reviewed by GAO provided award fees in excess of 15 percent of estimated costs.
Finally, the plan gives total authority for setting fee amounts to a “fee determining official” who
in the case of NPOESS, is also the program director. This individual’s objectivity in assessing
the contractor may well be compromised by his responsibility as program director for NPOESS’s
day-to-day management and his stake in the program’s success. The fee payments for periods
two through five made by the fee determining official routinely exceeded the recommendations
made by the NPOESS award fee review board. It should be noted that GAO’s review of Defense
contracts pointed out that DoD’s fee determining officials typically oversee a portfolio of related
programs but do not directly manage them. (See page 20.)

The Deputy Secretary should ensure that the Under Secretary for Oceans and Atmosphere in his
role as a member of the EXCOM works with the other members of the EXCOM to (1) Critically
review and revise the NPOESS award fee plan, and (2) Assign responsibility for determining fee
awards to an official who does not directly manage the NPOESS program. (See page 24.)


                              -----------------------------------------------------

In his written response to our draft report, the Deputy Secretary noted how important both he and
the Secretary of Commerce consider the NPOESS program to the Department’s mission to the
nation. He indicated that since becoming aware of the issues associated with NPOESS last year,
he has received monthly updates from NOAA and has met with the chief executive officers and
other senior executives of the prime contractor and the VIIRS subcontractor. The Deputy
Secretary stated that he takes the report’s findings and recommendations seriously, along with
those he expects will result from the Nunn-McCurdy certification process. Once that process is
complete, he indicated that he will work with the Under Secretary for Oceans and Atmosphere
and the EXCOM partners at DoD and NASA to ensure that the intent of both our
recommendations and those of the Nunn-McCurdy process are reflected in the management,
oversight, and execution of the NPOESS program. The Deputy Secretary’s response is included
as an appendix to this report.

In his written response to our draft report, the Under Secretary for Oceans and Atmosphere
generally agreed with the intent of our recommendations but also stated that the draft report does
not (1) adequately acknowledge the complexity of the NPOESS program; (2) represent the
ongoing level of direct involvement by the EXCOM in oversight of the IPO and NPOESS
program, (3) fully characterize the award fee structure of the NPOESS contract, and (4)
adequately recognize the DoD role in administration of the NPOESS contract.




                                                       iv
U.S. Department of Commerce                                                       OIG-17794-6-0001

Office of Inspector General                                                              May 2006


EXCOM Did Not Effectively Challenge Optimistic Assessments of the Impact of VIIRS
Problems on NPOESS.

Summary of NOAA’s Response

NOAA emphasized that NPOESS is one of the most complex environmental satellite programs
ever undertaken and noted that few programs have carried out a total system development of this
nature. NOAA argued that throughout its existence, EXCOM has been concerned with the
overall direction of NPOESS, given its technical complexity and aggressive schedule. NOAA
stated that EXCOM continued to provide direction to the IPO concerning budget and schedule
assumptions, as well as program progress, and EXCOM members held private discussions with
senior NPOESS contractor executives regarding their concerns. NOAA described additional
actions taken by EXCOM including tasking several independent reviews (five reviews since
2004 were cited in NOAA’s response), and proposing an independent management structure
called a Program Executive Office (PEO) to oversee the IPO. NOAA also noted that the
program was funded and structured at a level expected to provide a 50 percent probability of
success.

In response to our recommendation to obtain regular independent reviews of NPOESS, NOAA
said that EXCOM has been actively and directly involved in the oversight and management of
NPOESS, including proposing a PEO responsible for conducting ongoing independent analysis
and reviews of the NPOESS program. NOAA also stated that the tri-agency partners are already
conducting monthly reviews, and will conduct major independent reviews related to the major
milestones of the program. Noting that the Nunn-McCurdy process will determine the future
management structure, NOAA stated that it is committed to building on its already effective
working relationship with the other EXCOM members to ensure effective management and
oversight of NPOESS.

OIG Comments

NPOESS is clearly an extraordinarily complex program. NOAA, OIG, and all interested parties
agree on this. But it is precisely because of this complexity that we would have expected much
closer and documented oversight by EXCOM. Because NPOESS was budgeted for a 50 percent
probability of success, the need for close and continuous oversight was all the more critical.
While budgeting at this level suggests NPOESS had an equal chance of being either under or
over budget, a May 2003 report by a joint task force of the Defense Science Board and Air Force
Scientific Advisory Board points out that this budgeting philosophy is seriously flawed.
According to this report, budgeting at a 50/50 probability level erroneously assumes that areas of
increased risk and lower risk will balance each other out; in fact, particularly on space programs,
risk and cost are significantly skewed upward because of the daunting engineering challenges of
operating in the harsh environment of space. The report recommends budgeting for an 80 percent
probability of success, a level the task force believes to be the most probable cost.

Although NOAA’s response maintained that EXCOM was directly involved in NPOESS
oversight and described various actions taken, including requesting independent studies, the
response identifies little in the way of decisions or impacts resulting from these actions.



                                                v
U.S. Department of Commerce                                                        OIG-17794-6-0001

Office of Inspector General                                                               May 2006


Moreover, EXCOM’s request for two of the five studies identified in the response and its
proposal to establish a PEO were not proactive measures taken to gain control of a deteriorating
program; rather, they were steps taken in reaction to a crisis—learning that the first NPOESS
launch would be delayed. The two independent reviews were requested in August 2005, well
after the NPOESS launch delay had been identified. The first was an independent cost analysis
to determine whether a Nunn-McCurdy breach had occurred, and the second was an independent
program assessment largely to support the Nunn-McCurdy process. The PEO was not proposed
until November 2005. Moreover, the results of another independent review conducted in 2004
and cited in NOAA’s response—an independent cost analysis focusing on sensor integration—
yielded schedule and cost estimates considerably higher than those of the IPO, yet there is no
indication that EXCOM questioned whether the IPO’s estimate should be used.

NOAA’s response states that it agrees with the intent of our recommendation but suggests that it
is already obtaining regular, independent reviews of the NPOESS program. It is important to
highlight here that the intent of this recommendation is for a process to be established through
which qualified individuals who are independent of the NPOESS program and not responsible
for its management conduct regular reviews of NPOESS (e.g., on a quarterly or semiannual
basis, as well as at major milestones) to determine the program’s status and risks relative to the
new budget, schedule, and technical requirements baseline established during Nunn-McCurdy
certification. Collectively, these individuals should have extensive space program experience;
expertise in management, acquisition, systems engineering, and verification and testing of large
space systems; the requisite technical, cost, and programmatic expertise; and an understanding of
the current thinking on best practices for acquisition of large space systems. Results and
recommendations should be documented and provided both to EXCOM and the Deputy
Secretary of Commerce.

Contractor Received Excessive Award Fees for a Problem-Plagued Program.

Summary of NOAA’s Response

In its response, NOAA criticized the draft report’s second finding (1) for failing to fully
characterize the award fee structure of the NPOESS contract, (2) for not adequately recognizing
that the NPOESS contract was a DoD contract and therefore subject to the rules, regulations and
oversight of the Air Force, not the DOC, and (3) for failing to consider the March 29, 2006, DoD
policy on the administration of award fees.

OIG Comments

With regard to NOAA’s first concern, we believe the report carefully, accurately, and correctly
describes the NPOESS fee structure. In its written response, NOAA provided some general
information about the fee structure—all of which is already included in the report. It also noted
its belief that the structure was commensurate with the program’s complexity and the risk level
inherent in the baseline program. While we agree that the NPOESS program is complex and
have clearly noted the impact its high-risk nature could have on the fee amount in the report, we
believe it is fair—if not essential—to at least question the decision to allow an award fee pool of
up to 20 percent, particularly in light of the fact that such an amount is unusual even at the



                                                 vi
U.S. Department of Commerce                                                        OIG-17794-6-0001

Office of Inspector General                                                               May 2006


Department of Defense, where high-risk, complex programs are not uncommon.

With regard to NOAA’s second point, the first page of the report’s executive summary clearly
states that “[i]n August 2002, the IPO, using DoD’s contracting authority, awarded a single
satellite integration contract worth $4.5 billion to a prime contractor…” Furthermore, our
description of the IPO structure clearly indicates that DoD has lead responsibility for acquisition
matters. We therefore made no changes to the report to address this concern. In addition,
although the contract may have been awarded according to DoD rules and regulations, given that
half of the program’s funding comes from the Department of Commerce, we believe it is
appropriate for us as well as for NOAA and the Department to examine the management of the
contract’s award fee.

Finally, we are pleased to acknowledge the new DoD policy on award fee contracts, which
resulted from the December 2005 GAO review of award and incentive fees at DoD that we
discuss in our audit. That policy addresses many of the issues we raised with regard to the
NPOESS award fee structure and, if it is implemented in the NPOESS contract, should address
our concerns about the need for adequate incentives for high-risk, critical tasks, with rolling over
unearned fees to subsequent periods, and with paying fee for unsatisfactory performance. The
policy does not address all of our concerns, however. Specifically, it is silent on the issue of
whether interim fee should be paid when mission success milestones are missed and on whether
the award fee amount for this contract is excessive. In addition, as our report notes, one of the
reasons we raised all of the issues about the NPOESS award fee structure is so that NOAA could
properly consider those issues when crafting award fee plans for future major acquisitions.
Given the fact that NOAA is currently engaged in its first major satellite acquisition, we thought
it critical to bring the problems we found with the NPOESS fee structure to its attention.

In its response to our first recommendation for this finding, NOAA indicated that, in light of the
new DoD policy on award fee management, EXCOM will review the current award fee structure
to determine the specific changes needed to ensure compliance with the DoD policy. As noted
previously, the DoD policy does not address all of the issues we raised with regard to that
structure. NOAA’s response therefore fails to address what changes the Under Secretary for
Oceans and Atmosphere will recommend to EXCOM to address our concerns about whether
interim fee should be paid when mission success milestones are missed and whether the award
fee amount for this contract is excessive.

NOAA’s response to our recommendation concerning the responsibility for determining fee
awards indicated that EXCOM has already addressed this recommendation with the proposed
establishment of the PEO. If this position is established and the PEO is not directly responsible
for managing the NPOESS program, that action should meet the intent of our recommendation.

NOAA’s response is included in its entirety as an appendix to this report.




                                                vii
U.S. Department of Commerce                                                     OIG-17794-6-0001

Office of Inspector General                                                            May 2006


                                       INTRODUCTION 


Since the 1960s, the United States has operated two separate polar-orbiting meteorological
satellite systems. The Polar Operational Environmental Satellite (POES) Program is managed by
the Department of Commerce’s National Oceanic and Atmospheric Administration (NOAA),
and the Defense Meteorological Satellite Program is managed by the Department of Defense
(DoD). The satellites carry a suite of sensors that collect environmental data to generate
graphical weather images and specialized weather products for forecasters, the military, and the
public. Polar satellites also collect data that is used to monitor environmental and climate
phenomena such as ozone depletion and droughts. In 1994, by Presidential Decision Directive,
the two programs were converged to produce a single state-of-the-art environmental monitoring
satellite system, the National Polar-orbiting Operational Environmental Satellite System
(NPOESS) with the goal of reducing duplication and significantly cutting costs. The National
Aeronautics and Space Administration (NASA) is a partner in NPOESS because of its
experience with the Earth Observing System (EOS), whose remote sensing and spacecraft
technologies are expected to improve NPOESS capabilities.




     POES     http://npoess.noaa.gov       THE WHITE HOUSE
                                           WASHINGTON
                                           May 5, 1994
                                           PRESIDENTIAL DECISION
                                           DIRECTIVE/NSTC-2

                                           SUBJECT: Convergence of
                                           U.S.-Polar-Orbiting Operation
                                           Environmental Satellite
                                           Systems




     DMSP     http://npoess.noaa.gov



NPOESS will monitor global environmental conditions, and collect and disseminate data related
to weather, atmosphere, oceans, land, and near-space environment. NPOESS is considered
critical to the United States’s ability to maintain the continuity of data required for weather
forecasting and global climate monitoring through the year 2020.




                                            1                                            

U.S. Department of Commerce                                                                       OIG-17794-6-0001

Office of Inspector General                                                                              May 2006


Cost Overruns Cause Nunn-McCurdy Breach

The Nunn-McCurdy provision of the FY 1982 National Defense Authorization Act requires the
Secretary of Defense to notify Congress when unit costs for a major acquisition program such as
NPOESS grow by 15 percent4 over original baseline estimates. It further requires that should
costs grow by 25 percent, the program can only continue if the Secretary certifies in writing that
the program is essential to national security, more cost-effective alternatives do not exist, the
new cost estimate is reasonable, and a management structure is in place to adequately manage
and control unit costs.

Early estimates for the NPOESS program set life-cycle costs at $6.5 billion and an availability
date of March 2008 for the first NPOESS satellite. On September 28, 2005, program officials
notified Congress that NPOESS costs had grown by at least 15 percent. This escalation was
largely due to problems with a critical sensor—the Visible Infrared Imager/Radiometer Suite
(VIIRS).5 In November 2005, the Government Accountability Office (GAO) informed Congress
that life-cycle cost estimates for NPOESS are likely to grow to $9.7 billion, and the launch of the
first NPOESS satellite is at least 17 months behind schedule.6 That same month, an estimate
prepared for NPOESS management by DoD’s Cost Analysis Improvement Group showed that
cost growth had exceeded 25 percent, triggering the Nunn-McCurdy certification requirement.
Failure to provide this certification would terminate DoD’s involvement in the program. Such a
termination would have a devastating impact given that DoD provides half the program’s
funding.

Current Program Structure Establishes Shared Management and Accountability

The three agencies supporting NPOESS formed an Integrated Program Office (IPO) to manage
the program, outlining their roles and responsibilities in a memorandum of agreement (MOA),
dated May 26, 1995. Under the MOA, NOAA has overall management responsibility for the
converged system, as well as for satellite system operations; DoD has lead responsibility on
acquisition matters; and NASA is the lead agency for promoting transition to new technologies.
NOAA and DoD share the costs of NPOESS equally. The NPOESS Executive Committee
(EXCOM) provides overall policy and guidance. EXCOM consists of the Under Secretary of
Commerce for Oceans and Atmosphere, the Under Secretary of Defense for Acquisition and
Technology, and the NASA Deputy Administrator. The Integrated Program Office is located
within NOAA under the NPOESS program director.7



4
  10 U.S.C § 2433. 

5
  VIIRS collects visible/infrared imagery and radiometric data. Data types include atmospheric, clouds, earth

radiation budget, clear-air land/water surfaces, sea surface temperature, ocean color, and low light visible imagery.

6
  U.S. Government Accountability Office, November 2005. Polar-Orbiting Environmental Satellites—Technical 

Problems, Cost Increases, and Schedule Delays Trigger Need for Difficult Trade-off Decisions, GAO-06-249T. 

Washington, D.C: GAO.

7
  According to the MOA, the program director is a NOAA employee who reports to the NOAA Administrator 

through the NOAA Assistant Administrator for the National Environmental Satellite, Data and Information Service 

(NESDIS). In September 2005, the NOAA program director resigned and was replaced by a DoD employee.




                                                     2                                                       

U.S. Department of Commerce                                                       OIG-17794-6-0001

Office of Inspector General                                                              May 2006





Though not stipulated in the MOA, the agencies formed a steering committee to provide
additional executive leadership: committee members include the assistant administrator for
NESDIS and his counterparts at DoD and NASA, each of whom reports to the EXCOM member
for their agency.

NPOESS acquisition plans call for the procurement and launch of six satellites over the life of
the program, as well as the integration of 13 instruments. The IPO reports that 7 of the 13
instruments involve new technology development; and 4 of the 7, including VIIRS, are critical to
the program. To reduce risk associated with the NPOESS program, NASA is conducting the
NPOESS Preparatory Project—which entails launching a demonstration satellite equipped with
VIIRS and two other critical sensors to test their capabilities prior to the launch of the first
NPOESS satellite. This satellite launch was originally scheduled for May 2006.

Contract and Fee Structure. In 1997, the IPO awarded multiple contracts for sensor development
and fabrication to reduce the risk of associated problems and program delays. In August 2002, a
single satellite integration contract valued at $4.5 billion was awarded to a prime contractor. The
sensor development contracts were subsumed as subcontracts to the NPOESS prime. The prime
contract is divided into two broad phases: Engineering and Manufacturing Development (EMD)
and Production. The contract is currently in the EMD phase, which is a cost reimbursement
arrangement, providing for payment of allowable costs incurred by the contractor. It covers the
continuing development of the sensor instruments and the completion of the first two NPOESS
satellites. The Production phase will be fixed price and includes options for the final four
NPOESS satellites.


                                             3                                             

U.S. Department of Commerce                                                       OIG-17794-6-0001

Office of Inspector General                                                              May 2006


The contract uses award fees as incentives intended to encourage outstanding performance. The
Federal Acquisition Regulation (FAR) defines an award fee as “an award amount that the
contractor may earn in whole or in part during performance and that is sufficient to provide
motivation for excellence in such performance areas as quality, timeliness, technical ingenuity,
and cost-effective management.”8 The amount of the award fee ultimately paid is “determined
by the Government’s judgmental evaluation of the contractor’s performance in terms of the
criteria stated in the contract.”9

The fee distribution for the EMD phase is divided into three types: base fee, award fee, and
mission success fee. Base fee is set at 2 percent of total estimated cost and does not have to be
earned, i.e., the contractor receives this fee automatically each billing period regardless of its
performance. The other two fees must be earned. The award fee pool is 13 percent of total
estimated cost, while the mission success fee pool is 5 percent. This brings the potential fee pool
to 20 percent of total estimated cost, of which 18 percent is tied to performance. The contractor’s
eligibility for award fees is determined each March and September. The pool for each fee type is
shown below.


                                                            Amount in
                                      Fee Type               Fee Pool
                                   Base                    $ 57,190,785
                                   Award                   $369,294,988
                                   Mission Success         $136,817,498


Final determinations for award fee and mission success fee amounts are subjective. As shown in
table 1 (see page 5), mission success fee is tied to the successful completion of seven distinct
events. For each period or event, the contractor receives a score that determines the amount of
the fee pool it ultimately earns. For the award fee, the score is based on the government’s
assessment of contractor performance as measured against three broad evaluation criteria:
management, technical, and cost. Originally the weightings were as follows: management – 40
percent, technical – 35 percent, and cost – 25 percent. But concerns about cost overruns caused
the IPO to change these percentages prior to award fee period 5 (October 2004) to 40 percent for
management, 30 percent for technical, and 30 percent for cost in an attempt to increase the
incentive for cost control. The scoring for mission success fee is based on the contractor’s
performance of the event as a whole, taking into account the extent to which mission success
objectives were met.




8
    See FAR Part 16.405-2—Cost-Plus-Award-Fee Contracts.
9
    Ibid.


                                                  4                                        

U.S. Department of Commerce                                                          OIG-17794-6-0001

Office of Inspector General                                                                 May 2006


                          Table 1. Mission Success Fee Events
                                              Event Title
                           1     Critical Design Review
                                 NPOESS Preparatory Project (NPP),
                           2
                                 Sensors Complete and Delivered
                           3     NPP Ground Readiness
                           4     Processing of Preparatory Project Data
                           5     NPOESS Ground Readiness
                           6     Processing NPOESS Data Records
                           7     Interim Operational Capability


The plan currently establishes five performance ratings for both award and mission fee.


                                        Rating Definitions
                                  Excellent      90 – 100%
                                  Very Good      80 – 89%
                                  Good           65 – 79%
                                  Marginal       50 – 64%
                                  Unsatisfactory Below 49%


Rollover of Unearned Fee. The award fee plan contains a provision for rolling over unearned
fees to subsequent periods at the discretion of the fee determining official, which gives the
contractor additional time and opportunity to earn this money. When a rollover is allowed, the
fee determining official specifies the amount available and the conditions the contractor must
meet to earn it. Rollover amounts and related performance evaluations are kept separate from the
regular pool for the period in question. Ultimately, any unearned portion of the available fee pool
can be converted to cover program costs or retained for future use (including more fee awards).

Fees Earned Are Initially At Risk. The NPOESS contract stipulates that all award and mission
success fees earned during the EMD phase are earned “at risk.” This means that even though the
contractor has earned the fees, it may have to return up to 100 percent of them if it fails to deliver
a system that provides useful service over its life. However, the fee determining official has the
option to “retire” a portion of the at-risk fee in conjunction with each award fee period
assessment, thus exempting that portion from return in the event of program failure. The fee risk
retirement option, though, does not begin until several years in the future; so all fees earned to
date are still at risk.




                                                5                                             

U.S. Department of Commerce                                                               OIG-17794-6-0001

Office of Inspector General                                                                      May 2006


Related Audit and Evaluation Work

In 1998, our office reported that NPOESS life-cycle cost estimates for critical sensors and
algorithms were significantly higher than awarded contract values, and recommended that the
life-cycle estimate and related assumptions be revised for the entire program without delay.10
NOAA disagreed that immediate action was warranted, stating that some contractors were
having technical problems and costs were exceeding budget estimates. We stated that actual
contract award amounts, coupled with technical problems and related cost estimate growth, are
better indicators of program costs than earlier assumptions, and reaffirmed our position that
NOAA needed to promptly reevaluate the life-cycle cost estimate assumptions and update the
program baseline.

In 1999, the Commerce and NASA OIGs conducted a joint review of the risks and costs
associated with critical sensor technology that is being transferred to NPOESS from NASA and
other sources.11 We found that preliminary planning assumptions for the NPOESS Preparatory
Project did not include evaluating the feasibility of testing the Ozone Mapper Profiler Suite and
reported that excluding this sensor would significantly increase the risk of disrupting the
continuous collection of vital ozone data. We recommended that the IPO analyze the feasibility
of the sensor as a possible payload for the Preparatory Project and assess the operational risk of
not demonstrating the sensor.

Besides its November 2005 report cited previously and an earlier NPOESS review,12 GAO
recently assessed the Department of Defense’s use of award and incentive fees,13 finding many
of the same issues we report here regarding the NPOESS program and award fee plan: for
example, GAO found that DoD practices undermine efforts to motivate contractor performance
and do not hold contractors accountable for achieving desired acquisition outcomes, such as
meeting cost and schedule goals and delivering desired capabilities. It also reported that DoD
programs frequently pay most of the available award fees regardless of whether acquisition
outcomes fall far short of DoD’s expectations, were satisfactory, or exceeded expectations.
These findings and the weaknesses we noted in the NPOESS award fee plan suggest the need for
stringent restructuring of the requirements of such plans so that their overriding effect is to
motivate contractors to meet cost and schedule goals and thus provide best value to the
government.




10
   U.S. Department of Commerce, Office of Inspector General, September 1998. NPOESS Acquisition Well
Planned, but Life-cycle Cost Estimates for Critical Sensors Are Overstated, OSE-9593. Washington, D.C.:
Department of Commerce OIG.
11
   U.S. Department of Commerce, Office of Inspector General, March 1999. Proposed NPOESS Preparatory
Project Reduces Operational Risk, but Excludes Demonstration of Critical Ozone Suite, DOC OSE-11103/NASA
IG-99-012. Washington, D.C.: Department of Commerce OIG and National Aeronautics and Space Administration
OIG.
12
   U.S. Government Accountability Office, September 2004. Polar-Orbiting Environmental Satellites—Information
on Program Cost and Schedule Changes, GAO-04-1054. Washington, D.C: GAO.
13
   U.S. Government Accountability Office, December 2005. Defense Acquisitions: DoD Has Paid Billions in Award
and Incentive Fees Regardless of Acquisition Outcomes, GAO-06-66. Washington, D.C: GAO.


                                                 6                                                  

U.S. Department of Commerce                                                       OIG-17794-6-0001

Office of Inspector General                                                              May 2006


                      OBJECTIVES, SCOPE, AND METHODOLOGY 


The purpose of our audit was to determine (1) how problems with the NPOESS program are
identified and communicated by the contractor to the IPO and by the IPO to NOAA
management, and (2) whether award fees are administered effectively. We also considered
specific concerns of the House Science Committee regarding (1) oversight of the program and
(2) the amount of award fee paid the contractor notwithstanding the fact that the program is in
crisis.

Our fieldwork entailed review of applicable federal law, guidance, policies, and procedures, and
interviews with NPOESS IPO and NOAA officials. We also reviewed a variety of NPOESS
documents including the memorandum of agreement establishing the IPO, the NPOESS single
acquisition management plan, the single satellite integration contract, the award fee and mission
success fee plan, award decisions made by the fee determining official for award fee periods two
through six, briefings of the award fee review board, monthly status reports to EXCOM from
2002 through 2005, EXCOM meeting minutes and briefing materials for meetings, independent
review team briefings, and GAO reports. Because of the criticality of the VIIRS sensor to both
the NPOESS Preparatory Project and NPOESS satellites and the problems experienced with its
development, our review focused on VIIRS issues as they affect the NPOESS program.

We conducted our primary fieldwork from October 2005 to March 2006 at the NPOESS
Integrated Program Office headquarters in Silver Spring, Maryland. We did not assess
compliance with laws and regulations, as those matters were not pertinent to this audit. Neither
did we assess the reliability of computer-based data because such data was not essential to our
objectives. We limited our evaluation of internal controls to the IPO processes for transferring
information to EXCOM by way of written reports and verbal briefings. The body of this report
presents the results of these tests.

We performed this audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and under the authority of the Inspector General Act of
1978, as amended, and Department Organization Order 10-13, dated May 22, 1980, as amended.




                                            7                                             

U.S. Department of Commerce                                                                       OIG-17794-6-0001

Office of Inspector General                                                                              May 2006


                                 FINDINGS AND RECOMMENDATIONS 


I.	        EXCOM Did Not Effectively Challenge Optimistic Assessments of the Impact of
           VIIRS Problems on NPOESS

The information that the problems with the VIIRS sensor would delay the NPOESS launch took
observers of the program by surprise. We began our audit in part because of our own concerns
and those expressed by members of Congress and OMB staff that the IPO either did not identify
VIIRS problems or, if identified, did not bring them to the attention of EXCOM or other senior
management. In fact, the opposite was true. Although we found that information sharing was not
effective at the outset of the program, as VIIRS problems persisted, the IPO and prime contractor
took steps to improve communication, as well as increase their oversight of the VIIRS
subcontractor. At the request of the DoD EXCOM member, the IPO gave EXCOM monthly
status reports presenting critical cost, schedule, and technical progress data on NPOESS and
providing a wealth of information about the problems with VIIRS. These reports consistently
pointed out that VIIRS was the source of the majority of the constantly growing cost and
schedule overruns. Despite mounting evidence of the seriousness of the VIIRS problems,
EXCOM did not effectively challenge the IPO’s optimistic assessments that those problems
would not delay the first NPOESS launch or exceed the program’s management reserve.14

A. Communication Between the IPO and Contractor Was Improved to Address Recurring
   Problems with VIIRS

                  No. of VIIRS      VIIRS problems became apparent after hardware testing
   Year            Problems         began. Between September 2002 and September 2005, the
               Documented by IPO    IPO documented 13 design, manufacturing, and integration
   2002                 1           and test problems (see box), with 9 reportedly resolved
   2003                 4           through 2005. In detailing the source of the VIIRS problems,
   2004                 5           an independent review team, convened by EXCOM in early
   2005                 3           2005, concluded that the IPO and prime contractor were late
  Total                13           in identifying the full extent and impact of the problems.
                                    According to the team, the VIIRS design was to be based on
                              15
an existing NASA instrument, but the contractor and government failed to recognize the design
was changing substantially as it developed. The team also noted that the internal processes of the
VIIRS subcontractor were inadequate and not being followed, and the subcontractor’s
management communication and oversight were poor.

IPO officials acknowledged that the VIIRS subcontractor did not receive adequate oversight
early in the program and the prime contractor had been reluctant to provide information to the
government regarding VIIRS. They told us that they initially relied too heavily on remote
communication with the VIIRS subcontractor rather than obtaining firsthand information through
contractor management and IPO oversight at the subcontractor’s facility. After a succession of
VIIRS problems, the IPO and contractor took steps to improve communication, most notably by
providing oversight and supervision at the subcontractor’s site. In late summer 2005, to improve

14
     Management reserve refers to funds set aside to provide an adequate budget for unanticipated work on a contract.
15
     VIIRS was to be based on the moderate resolution imaging spectroradiometer (MODIS).


                                                       8                                                     

U.S. Department of Commerce                                                                  OIG-17794-6-0001

Office of Inspector General                                                                         May 2006


oversight not only of VIIRS but the program as a whole, the IPO instituted a comprehensive
monthly internal review in which IPO senior management receives assessments of progress and
risks from IPO instrument managers, engineers, and scientists. Daily summaries of VIIRS sensor
status are also prepared for senior IPO management.

B. 	Executive Leadership Received Detailed Monthly Status Reports But Provided Limited
   Oversight

Since December 2002, at the request of the DoD EXCOM member, the IPO has submitted
monthly status reports on NPOESS to EXCOM presenting budget, schedule, and technical
information, and earned value measures. These measures depict the actual progress of a
project—work completed, time taken, and costs incurred compared against the plan. Earned
value measures include a schedule performance index (SPI) and cost performance index (CPI)
that reflect a project’s schedule and cost variance as a ratio instead of a dollar amount. Ratios
less than 1 indicate that work is behind schedule and over budget. A program progressing
according to plan or exceeding it will have an SPI and CPI of 1.0 or greater. Table 2 shows the
deterioration of these indexes over time, as documented in the monthly status reports, for both
the NPOESS program as a whole and the VIIRS sensor.


         Table 2. Earned Value Measures for Selected Time Periods for NPOESS Program and VIIRS
         Sensor from Monthly Status Reports
                                         NPOESS          NPOESS          VIIRS           VIIRS
             Date of Report
                                          SPIa            CPIb            SPIa           CPIb
         September 2003                     .96            .969            .90             .895
         February 2004                     .96             .95             .89             .80
         September 2004                    .95             .91             .88             .71
         December 2004                     .95             .89             .88             .68
         March 2005                        .94             .87             .87             .66
         July 2005                         .93             .83             .88             .60
         August 2005                       .93             .82            .91c            .89c
         a
          SPI is schedule performance index
         b
           CPI is cost performance index
         c
           VIIRS SPI and CPI were calculated against a revised plan incorporating an increased cost
         and extended schedule; therefore, these measures are not comparable to the measures from the
         previous periods.




                                                  9                                                     

U.S. Department of Commerce                                                                 OIG-17794-6-0001

Office of Inspector General                                                                        May 2006


As shown in table 3, the monthly status reports repeatedly described the problems with VIIRS, as
well as the actions being taken to solve them, and consistently noted that VIIRS was causing the
majority of the constantly growing cost and schedule overruns. (See appendix I for additional
VIIRS-related issues identified in the status reports.)




       Table 3. Selected Information on VIIRS from Monthly Status Reports to EXCOM

        Date of Report                               Information Reported

         Dec. 12, 2002    – Problem reported with VIIRS that corrupts instrument observation.
                          – VIIRS has become “our problem child.”
                          – Structural problems reported in the VIIRS organization in addition to
         Sept. 16, 2003     technical problems.
                          – Costs are above budget in several areas because the work was more
                            difficult than estimated.
                          – VIIRS is responsible for about 50% of the $26M projected overrun at
         Jan. 20, 2004
                            program completion.
                          – VIIRS remains program’s biggest challenge.
         Apr. 19, 2004
                          – Just over 60% of total program overrun are attributable to VIIRS.
         May 19, 2004     – All team members report that VIIRS schedule is optimistic and high risk.
                          – Presence at contractor site of contractor personnel and VIIRS
         Aug. 24, 2004
                            subcontractor corporate management has increased.
                          – VIIRS schedule remains very high risk.
                          – VIIRS is responsible for about 62% of the projected overrun at program
         Sept. 27, 2004
                            completion.
                          – VIIRS will not make December 2005 NPP delivery date.
                          – Need to replan VIIRS and another instrument because of an unanticipated
         Dec. 21, 2004      cost increase will cause NPOESS Preparatory Project launch to slip.
                          – VIIRS schedules have borne no resemblance to reality over the last several
                             months.
                          – VIIRS problems are exerting significant pressure on FY05 and 06 budgets.
         Feb. 28, 2005    – NPOESS launch date is not affected, but budget reserves are strained with
                            the continuing sensor problems.

                          – VIIRS subcontractor is meeting day-to-day schedules.
                          – Contractor and VIIRS subcontractor agreed on a 13-month delivery slip for
                            NPP.
                          – Contractor is concerned that continued high manpower levels required on
                            VIIRS, CMIS, and parts of NPOESS spacecraft design threaten NPOESS
         Mar. 23, 2005
                             launch.
                          – Review to identify any possible impact to the launch date for NPOESS
                            continues.
                          – Continuing sensor problems strain ability to stay within budget reserves.




                                                10                                                       

U.S. Department of Commerce                                                     OIG-17794-6-0001

Office of Inspector General                                                            May 2006


According to IPO officials, EXCOM was heavily involved early in the program, but its
involvement dwindled over time. It met only sporadically throughout the period in which the
VIIRS problems were occurring. In the 32-month period from May 2003 through December
2005, EXCOM met formally six times (see box), and did not            Schedule of EXCOM
meet at all from May to December 2003, even as the monthly                 Meetings
reports showed VIIRS subcontract-induced delays and                                  Meetings
dubbed VIIRS “our problem child.” The 2004 monthly                   Period
                                                                                       Held
status reports repeatedly advised of overruns on VIIRS as
                                                               May to Dec. 2003 None
well; however, EXCOM did not convene until June and July
2004. Although the monthly reports continued to warn of                             June
                                                               Jan. to Dec. 2004
VIIRS schedule erosion and cost overruns, EXCOM did not                             July
meet again until late January 2005—one month after the                              January
report stating that VIIRS would not meet its deadline for                           August
                                                               Jan. to Dec. 2005
delivery to the NPOESS Preparatory Project and the launch                           October
would be delayed.                                                                   November

In an attempt to provide greater executive leadership, NOAA, NASA, and DoD formed the tri
agency steering committee. Its members were the Assistant Administrator for Satellite and
Information Services (AA/NESDIS) and his counterparts at DoD and NASA, all of whom
reported to an EXCOM member. Over time, committee membership grew to include the Deputy
Under Secretary of NOAA and others. The committee is not authorized by the memorandum of
agreement and has no decision-making authority, but EXCOM has relied on it to assist with
program oversight. For instance, at the January 2005 EXCOM meeting, the steering committee
was asked to form an independent review team to investigate problems and their impact on the
Preparatory Project. At the August 2005 EXCOM meeting, it was charged with recommending
new guidelines for award fee determinations and commissioning a Defense Space Acquisition
Board review team to evaluate the program.

As a NOAA employee, the NPOESS program director briefed the AA/NESDIS regularly and
NOAA’s Under Secretary and Deputy Under Secretary “as necessary” on the status of NPOESS.
The AA/NESDIS told us that he was aware of problems with the VIIRS sensor and the impact
on the Preparatory Project, but had relied on the program director’s assurance that the problems
were containable within the management reserve and would not affect NPOESS. The Deputy
Under Secretary of NOAA told us that he received and reviewed the monthly EXCOM reports
and became increasingly concerned in July 2004 when he noticed the earned value measures
were deteriorating, even though the program director maintained the problems could be solved
within the management reserve with no impact on NPOESS. In fact, the management reserve
was being consumed at an unsustainable rate—by August 2004, 92 percent of the contractor’s
reserve ($135 million out of $147 million) had either been spent or allocated, and new problems
were continuing to surface.

On January 31, 2005, the program director briefed EXCOM on the VIIRS problems, stating that
the IPO expected a 10- to 12-month delay in delivering the sensors, but that NPOESS should not
be affected. (He also noted that the contractor estimated a 16-month delay.) The February 28
monthly report expressed concern that VIIRS problems were straining FY 2005 and FY 2006
budgets, but indicated that the NPOESS launch would not be affected. The March 23 report
noted that the contractor was concerned that VIIRS, as well as problems with another sensor, the


                                           11                                            

U.S. Department of Commerce                                                              OIG-17794-6-0001

Office of Inspector General                                                                     May 2006


conical microwave imager/sounder (CMIS),16 were threatening the NPOESS launch, and at a
meeting on March 31, the contractor advised the program director that the VIIRS problems
would indeed delay the NPOESS launch. The contractor documented this impact in a formal
notification letter dated May 19, 2005. At its August 19 meeting, EXCOM directed that a
Nunn-McCurdy notification package be prepared to report unit cost growth of 15 percent or
greater.

Beginning in 2004, EXCOM commissioned several reviews, including an independent
assessment of the impact of the VIIRS problems on the Preparatory Project and NPOESS and an
independent cost analysis by DoD’s Cost Analysis Improvement Group to determine whether the
25 percent Nunn-McCurdy threshold would be breached, requiring program certification. The
results of the latter analysis showed that the breach would exceed 25 percent. As a result,
NPOESS is undergoing Nunn-McCurdy certification, with completion expected in the June 2006
time frame.

Conclusion

Despite the mounting evidence of serious problems as development of VIIRS proceeded,
EXCOM did not effectively challenge the IPO’s optimistic assessments that the problems would
not delay the first NPOESS launch or exceed the program’s management reserve. Inadequate
oversight, in effect, postponed the critical evaluations and decisions needed to replan the
program’s faltering elements and contain the cost and schedule overruns. Time and money were
thus wasted as the problems with NPOESS continued unchecked. And VIIRS is not the only
high-risk element of NPOESS—CMIS, for example, poses significant risk. After the Nunn-
McCurdy review is complete and assuming the program is certified, close and sustained
oversight by senior Department management and EXCOM—informed by accurate and objective
information—will be essential to ensuring serious problems do not fester and the revised
NPOESS program remains on track. Regular evaluations and reporting on NPOESS to the
Deputy Secretary and EXCOM by independent experts will help provide objective information
and advice, and serve as a needed check on the inherent optimism of program officials.

Recommendation

The Deputy Secretary should ensure that the Under Secretary for Oceans and Atmosphere in his
role on the EXCOM works with the other members of the EXCOM to obtain and review regular,
independent evaluations of the status of NPOESS. In particular, such evaluations should
thoroughly assess the progress toward completing high-risk or otherwise critical tasks and the
associated impact of any problems encountered.

Department’s Response

In his written response to the draft report, the Deputy Secretary noted how important both he and
the Secretary of Commerce consider the NPOESS program to the Department’s mission to the
nation. He indicated that since becoming aware of the issues associated with NPOESS last year,

16
 CMIS collects global microwave radiometry and sounding data to produce microwave imagery and other
meteorological and oceanographic data.


                                                12                                                    

U.S. Department of Commerce                                                      OIG-17794-6-0001

Office of Inspector General                                                             May 2006


he has received monthly updates from NOAA and has met with the chief executive officers and
other senior executives of the prime contractor and the VIIRS subcontractor. The Deputy
Secretary stated that he takes the report’s findings and recommendations seriously, along with
those he expects will result from the Nunn-McCurdy certification process. Once that process is
complete, he indicated that he will work with the Under Secretary for Oceans and Atmosphere
and the EXCOM partners at DoD and NASA to ensure that the intent of both our
recommendations and those of the Nunn-McCurdy process are reflected in the management,
oversight and execution of the NPOESS program.

NOAA’s Response

NOAA’s written response emphasized that NPOESS is one of the most complex environmental
satellite programs ever undertaken and noted that few programs have carried out a total system
development of this nature. NOAA asserted that our draft report is inaccurate in its
characterization of EXCOM’s level of involvement in NPOESS, stating that EXCOM was
directly involved in NPOESS oversight. NOAA said that throughout EXCOM’s existence, it has
been concerned with the overall direction of NPOESS, given the technical complexity and
aggressive schedule and continued to provide direction to the IPO concerning budget and
schedule assumptions, and progress in the program. NOAA stated that EXCOM members had a
number of private discussions with senior NPOESS contractor executives regarding concerns
with performance and the IPO’s optimistic assumptions about the contractor’s ability to meet
budget and schedule baselines. NOAA disagreed with our statement that it commissioned
several independent reviews beginning in January 2005, noting that such reviews began in 2004.
The response specifically identified the following five independent reviews tasked by EXCOM:

           •	   A program assessment in mid-2004 that focused on the space weather component
                of the NPOESS program and provided information on the complexity of the
                NPOESS. The EXCOM agreed that space weather should be a part of the program
                and put the IPO on alert for possible problems regarding the complexity of the
                program.

           •	   Two independent cost reviews by the DoD’s Cost Analysis Improvement Group
                (CAIG), one in late 2004 and one in late 2005. The first review was concerned
                with the risk, schedule, and cost implications of using a new sensor test bed to
                accomplish required sensor integration and concluded that if the test bed worked,
                the projected NPOESS schedule was feasible. The second review in November
                2005 verified schedule and cost overruns in the baseline program and led to the
                determination of a Nunn-McCurdy breach.

           •	   A review of NPP, including an examination of VIIRS, by an independent
                review team in early 2005. The review team noted VIIRS was experiencing
                significant development problems and would delay NPP launch at least 10
                months. The team did not identify cost and schedule issues which would delay
                launch of the initial NPOESS spacecraft.




                                            13                                            

U.S. Department of Commerce                                                       OIG-17794-6-0001

Office of Inspector General                                                              May 2006


           •	 An independent program assessment in late 2005 that found major cost, schedule,
              and management problems.

Finally, in November 2005, EXCOM proposed establishing a Program Executive Office (PEO),
headed by a seasoned Flag level acquisition professional, to independently oversee the IPO.

In response to our recommendation to obtain regular independent reviews, NOAA said that
EXCOM has been actively and directly involved in the oversight and management of NPOESS,
including proposing a PEO responsible for conducting ongoing independent analysis and reviews
of the NPOESS program. NOAA also stated that the tri-agency partners are already conducting
monthly reviews, and will conduct major independent reviews related to the major milestones of
the program. Noting that the Nunn-McCurdy process will determine the future management
structure, NOAA stated that it is committed to building on its already effective working
relationship with the other EXCOM members to ensure effective management and oversight of
NPOESS.

OIG Comments

NPOESS is clearly an extraordinarily complex program. NOAA, OIG, and all interested parties
agree on this. But it is precisely because of this complexity that we would have expected much
closer and documented oversight by EXCOM. Because NPOESS was budgeted for a 50 percent
probability of success, the need for close and continuous oversight was all the more critical.
While budgeting at this level suggests NPOESS had an equal chance of being either under or
over budget, a May 2003 report by a joint task force of the Defense Science Board and Air Force
Scientific Advisory Board points out that this budgeting philosophy is seriously flawed.
According to this report, budgeting at a 50/50 probability level erroneously assumes that areas of
increased risk and lower risk will balance each other out; in fact, particularly on space programs,
risk and cost are significantly skewed upward because of the daunting engineering challenges of
operating in the harsh environment of space. The report recommends budgeting for an 80 percent
probability of success, a level the task force believes to be the most probable cost.

The statement in our draft report that EXCOM commissioned several reviews beginning in
January 2005 pertained to actions taken after the program director briefed EXCOM regarding a
10- to 12-month delay in delivering VIIRS. We do not dispute that NOAA commissioned a
number of independent studies beginning in 2004 and have modified the wording of our report to
avoid any misunderstanding.

Although NOAA maintained that EXCOM was directly involved in NPOESS oversight and
described various actions that were taken, including requesting independent studies, the response
identifies little in the way of decisions or impacts resulting from these actions, other than
EXCOM agreeing that space weather should be part of NPOESS. Moreover, EXCOM’s request
for two of the five studies identified in the response and its proposal to establish a PEO were not
proactive measures taken to gain control of a deteriorating program; rather, they were steps taken
in reaction to a crisis—learning that the first NPOESS launch would be delayed. The two
independent reviews were requested in August 2005, well after the NPOESS launch delay had
been identified. The first was an independent cost analysis to determine whether a Nunn



                                            14                                             

U.S. Department of Commerce                                                                                OIG-17794-6-0001

Office of Inspector General                                                                                       May 2006


McCurdy breach had occurred, and the second was an independent program assessment largely
to support the Nunn-McCurdy process. The PEO was not proposed until November 2005.

The results of another independent review cited in NOAA’s response—the 2004 CAIG review
focusing on the use of a new test bed for sensor integration—is a stark reminder of the optimism
characterizing the IPO’s assessments. For the first and second NPOESS launches, CAIG
estimates showed sensor integration schedules that were 11 and 27 months longer than IPO’s
estimates (with the comment that the difference for the first launch could be partially offset by an
earlier start on integration). The CAIG further estimated that engineering, manufacturing,
development, and procurement costs would amount to $1.8 billion more than IPO’s estimate,
with the difference attributed primarily to the difference in integration durations. To estimate the
integration period, the CAIG used historical data for space meteorological programs, while the
IPO estimate was based on savings it expected to realize using a new contractor-developed test
bed. The CAIG briefed this information at the January 31, 2005, EXCOM meeting.

NOAA states in its response that the
CAIG review concluded that if the test                                     Summary of IPO and CAIG
                                                                        NPOESS Program Duration Estimates
bed worked then the projected NPOESS
schedule was feasible. However, the
                                                   •	 Historical space meteorological programs have 2 – 3 year integration
briefing presented to EXCOM by the                    periods (dependent upon # of sensors).
CAIG conveys a less affirmative                    •   NPP integration period is scheduled for just under 2 years (47% longer
message (see box). In addition, the                    than NPOESS C1).

minutes of this meeting stated that it             •   Using historical program integration times, NPOESS will slide to the
was generally agreed that the program                  right, requiring a re-evaluation of the meteorological satellite plan.

would meet schedule, cost, and                     •   IPO’s plan to accomplish integration in 1 year is dependent on savings
technical requirements if the test bed                 attributed to use of an Electrical Engineering Model Test Bed
                                                       (EEMTB).
worked as advertised; however, the
minutes also said that if the test bed did
not work, the CAIG’s estimate is the                                                                                            14




more likely outcome. Despite the               Source: “Cost Analysis Improvement Group Independent Cost Assessment,”
significant disparity between the              briefing by Curt Khol, OSD Cost Analysis Improvement Group to EXCOM,
estimates of the CAIG and IPO, there is        January 31, 2005.

no indication that EXCOM questioned
whether the IPO’s estimate should be
used.

NOAA’s response states that it agrees with the intent of our recommendation but suggests that it
is already obtaining regular, independent reviews of the NPOESS program. It is important to
highlight here that the intent of this recommendation is for a process to be established through
which qualified individuals who are independent of the NPOESS program and not responsible
for its management conduct regular reviews of NPOESS (e.g., on a quarterly or semiannual
basis, as well as at major milestones) to determine the program’s status and risks relative to the
new budget, schedule, and technical requirements baseline established during Nunn-McCurdy
certification. Collectively, these individuals should have extensive space program experience;
expertise in management, acquisition, systems engineering, and verification and testing of large
space systems; the requisite technical, cost, and programmatic expertise; and an understanding of



                                             15                                                                           

U.S. Department of Commerce                                                       OIG-17794-6-0001

Office of Inspector General                                                              May 2006


the current thinking on best practices for acquisition of large space systems. Results and
recommendations should be documented and provided both to EXCOM and the Deputy
Secretary of Commerce.




                                            16                                               

U.S. Department of Commerce                                                        OIG-17794-6-0001

Office of Inspector General                                                               May 2006


II.    Contractor Received Excessive Award Fees for a Problem-Plagued Program

Award fees are intended to motivate a contractor to strive for excellence in such performance
areas as quality, timeliness, technical ingenuity, and cost-effective management. The NPOESS
experience, however, clearly shows that this incentive system does not always promote the
desired caliber of performance. The NPOESS program is currently in Nunn-McCurdy breach,
more than $3 billion over budget and at least 17 months behind schedule—hardly a model of
cost-effectiveness or timeliness. Yet the prime contractor has received more than $123 million in
award fees—84 percent of the available fee pool for the first six award periods. For the first five
periods, the contractor averaged 90 percent of available fees.

To determine how the contractor was able to receive so great a portion of the fees when the
program was so troubled, we examined the award fee plan and identified several flaws in its
structure. The plan’s evaluation criteria are not sufficiently focused on critical, high-risk tasks.
Also, the amount of fee the contractor can earn (up to 20 percent of the contract’s total estimated
costs) appears excessive in comparison to other government award fee contracts. Finally, we
question the practices of paying fees for performance rated unsatisfactory and allowing the
contractor multiple opportunities to rollover unearned fee.

Although the payments appear to be excessive, they were deemed appropriate by the fee
determining official—the government official designated to set award and mission success fee
amounts earned by the contractor. In the case of NPOESS, the fee determining official also
serves as the program director, and as such is responsible for day-to-day management of the
program. The intimate connection between the director’s professional reputation and the success
of both the program and the contractor could affect his objectivity as fee determining official in
setting award amounts.

In light of the severe problems the NPOESS program is experiencing, the current award fee
system is clearly not promoting excellent contractor performance. Accordingly, NOAA should
work with EXCOM to review and revise the award fee plan to address the problems we
identified and consider alternative methods for promoting excellence. It should also segregate
program management and fee determining duties, assigning the latter to an individual who is not
involved in day-to-day management of NPOESS.

A. Award and Mission Success Fees Have Not Resulted in Excellent Contractor Performance

Through the first five award fee periods (September 2002 through March 2005) the fee
determining official awarded more than 90 percent of the available pool to the contractor, and
rolled over approximately 44 percent of unearned fees into subsequent periods, giving the
contractor additional opportunities to earn them. In award period 6, the contractor earned 48
percent of available fees; none of the unearned fee was rolled over. Table 4 shows the total
percentages awarded for fee periods 1 though 6, with and without rollover amounts factored in.

The contractor received these fees even though the program was experiencing serious problems
and cost overruns as discussed in the various EXCOM reports. At the end of period 4, for
example, the program showed cost and schedule overruns in five major areas—most notably in



                                             17                                              

U.S. Department of Commerce                                                                    OIG-17794-6-0001

Office of Inspector General                                                                           May 2006


the Space Segment, which includes VIIRS and accounts for over 54 percent of the negotiated
contract cost. The earned value measures showed a schedule performance index (SPI) of .95 and
a cost performance index (CPI) of .90. SPI and CPI reflect a project’s schedule and cost variance
as a ratio instead of a dollar amount. As noted previously, ratios less than 1 indicate that work is
not meeting the schedule or cost baseline. Ideally a program should have an SPI and CPI of 1.0
or greater. The NPOESS indexes indicated that overall, the program was running about 5 percent
behind schedule and 10 percent over budget. However, the Space Segment had an SPI of .92 and
a CPI of .84, meaning it was about 8 percent behind schedule and 16 percent over budget, a
significant difference from the overall program. Also, according to IPO and contractor estimates,
by the end of period 4 the total life-cycle cost for the NPOESS program had increased from $6.5
billion to $7.4 billion.


 Table 4. Final Award Fee Decisions with Rollover
      Period             $ Pool             Award            Unearned       $ Rollover     Rollover     Total %
                                                                            Designated     Earned         (with
                                      %           $                                                     rollover)
         1
                       28,393,630      95      26,973,949     1,419,681       1,419,681      709,840          97.5
 (Sep 02 – Mar 03)
         2
                       26,624,692      89      23,695,976     2,928,716       1,500,000    1,500,000          94.6
 (Apr 03 – Sep 03)
         3
                       22,560,609      94      21,206,973     1,353,636       1,353,636      812,182          97.6
 (Oct 03 – Mar 04)
         4
                       22,560,609      92      20,755,760     1,804,849               0a            0         92.0
 (Apr 04 – Sep 04)
         5
                       24,165,968      82      19,816,094     4,349,874      1,000,000b         TBD           82.0
 (Oct 04 – Mar 05)
 Total for Periods
                      124,305,508      90   112, 448, 752
        1–5
         6
                       22,157,204      48      10,672,635    11,484,569               0a            0          48
 (Apr 05 – Sep 05)
 Total for Periods
                       146,462,712      84      123,121,387 23,341,325          5,273,317 3,022,022c           86c
         1–6
 a
   No unearned award fee was designated as rollover from periods 4 and 6.
 b
   Rollover in the amount of $1 million designated from period 5 is tied to events scheduled for completion in
 periods 7 and 8 ($500,000 for each period).
 c
   These amounts will increase if rollover designated from period 5 is awarded to the contractor.

The earned value measures continued to worsen. By the end of period 5, the total program SPI
had fallen to .94 and the CPI had fallen to .85. The Space Segment’s SPI had dropped to .91 and
its CPI to .77. So while the overall program was now about 6 percent behind schedule and 15
percent over budget, the Space Segment was running about 9 percent behind schedule and 23
percent over budget. By the end of period 5, the contractor had advised the IPO that it needed
additional funds to attempt to meet scheduled dates for the launch of the first two NPOESS
satellites, but that even with additional money, it would likely miss the dates for critical design
review and the first launch.

Even as cost increases and schedule delays mounted in periods 4 and 5, the contractor received
award fees of 92 percent (for “excellent” performance) and 82 percent (for “very good”),


                                                   18                                                     

U.S. Department of Commerce                                                                     OIG-17794-6-0001

Office of Inspector General                                                                            May 2006


respectively, for those periods. These ratings seem distinctly at odds with the state of the
program at that time. In period 6, the award fee fell to 48 percent of available funds, reflecting a
rating of unsatisfactory.

Contractor received interim mission success fees even as it missed required milestones

Prior to making a final award decision, the fee determining official may approve interim award
and mission success payments, a provision designed to improve the contractor’s cash flow. If the
final fee decision exceeds the interim payment, the contractor may bill for the difference. If it is
less, the contractor must return the difference or adjust future billings. The fee determining
official may authorize interim mission success fee payments at the 1-, 2-, and 3-year points prior
to the scheduled completion date of the event. The cumulative amount of the fee paid may not
exceed 20 percent of the available pool for the first payment, 40 percent for the second, and 60
percent for the third. For NPOESS, the fee determining official approved interim mission success
payments for events 1 through 4 in September 2003 and September 2004.

The first event, Critical Design Review, is intended to verify that the system design can be
produced and will meet its design specification when built. To accomplish this, the contractor
must prove (among other things) that each system entity, including the sensors, will be able to
meet their individual specifications. The second event calls for the on-time delivery of the cross-
track infrared sounder (CrIS)17 and VIIRS sensors. The September 2003 EXCOM report noted
that CrIS was doing quite well, but that VIIRS was not and had become the program’s “problem
child.” Earned value measures at the time showed VIIRS at 10 percent behind schedule and more
than 10 percent over budget. Yet in that same month, the fee determining official awarded the
contractor 18.5 percent out of a possible 20 percent of the available mission success fee pool for
events 1 and 2. In September 2004, the official awarded another 21.5 percent for each of these
events even though the EXCOM report for that month stated both VIIRS and CrIS were over
budget and behind schedule. In fact, at that time VIIRS was 12 percent behind schedule and
approximately 30 percent over budget.

The third event, Ground Readiness for the Preparatory Project, relies on delivery of both VIIRS
and CrIS sensor designs. As mentioned previously, VIIRS was running behind schedule in
September 2003, and both sensors were running behind schedule in September 2004. Yet the
contractor again received maximum interim fee payments for this event.




17
     CrIS will provide improved measurements of the temperature and moisture profiles in the atmosphere.


                                                     19                                                    

U.S. Department of Commerce                                                                       OIG-17794-6-0001

Office of Inspector General                                                                              May 2006



Table 5 lists the total of all interim mission success fee payments.

Table 5. Interim Mission Success Fee Paymentsa,b
                                September 2003                 September 2004          Total
Event        Total Pool          Fee     Percent             Fee Award Percent Fee Award Percent
                 ($)          Award ($)                          ($)               ($)
     1         3,689,156         681,499   18.5                  794,163 21.5   1,475,662    40
     2        12,297,185       2,271,664   18.5                2,647,210 21.5   4,918,874    40
     3         6,342,328       1,135,832   18.0                1,401,099 22     2,536,931    40
     4        43,859,958                                       8,771,992 20     8,771,992    20
    Total                       4,088,995                     13,614,464       17,703,459
a
  The cumulative amount of the fee paid may not exceed 20% of the available pool for the first payment, 40% for
the second, and 60% for the third.
b
  The contractor did not request interim fees in 2005.

Though the contract allows for interim mission success fee payments, they are not guaranteed.
The fee determining official should carefully consider the contractor’s progress toward eligible
events and only make such payments when warranted by measurable achievements toward
established goals.

B. Flawed NPOESS Award Fee Plan Needs to Be Revised

Our examination of award fees paid to date under the NPOESS contract revealed an incentive
structure with serious flaws. Because the award fee plan is part of the contract with the prime,
fixing these problems may require modification of the contract.18 The Nunn-McCurdy
certification process, which includes a review of the plan for NPOESS, provides an opportunity
for addressing these problems and revising the contract as necessary. The failings of NPOESS
are also instructive for NOAA; the agency should consider these failings and related issues as it
crafts other award fee plans and contracts for future major acquisitions.

Misplaced incentives put insufficient focus on accomplishment of critical, high-risk tasks

The current award fee plan does not appear to account for the fact that some contract tasks are
more critical or riskier than others. For example, as mentioned previously, the Space Segment
accounts for over 50 percent of the contract value and includes VIIRS and the other critical
sensors that have been plagued with problems and cost overruns. But the plan does not give
additional weight to the score for this segment during the award fee determination process. By
treating program aspects that have greater impact and/or risk equivalently with areas that have
much less impact or lower risk, the plan fails to give the contractor an adequate incentive to

18
    For the award fee, the government can make unilateral changes to the plan before the start of an evaluation period
if it provides written notice to the contractor. Changes made once the evaluation period has begun require the
contractor’s agreement. For mission success fee, the government may change the plan if it provides written
notification to the contractor at least 1 year before the scheduled completion of the mission success fee event. After
that point, changes to the plan require the contractor’s consent. The total amounts of the award fee and mission
success fee pools can only be changed by modifying the contract for added or deleted work.


                                                     20                                                      

U.S. Department of Commerce                                                                        OIG-17794-6-0001

Office of Inspector General                                                                               May 2006


perform in the high risk, high impact areas. NOAA and EXCOM should consider new ways to
provide incentives for tasks that are more critical or riskier than others.

NPOESS fee pools appear excessive

The NPOESS contract also provides an award fee pool that may be excessive. In a review of a
sample of Defense Department contracts with award fees, GAO found that less than 1 percent of
the contracts provided for award fees greater than 15 percent, and only 14 percent of the
contracts allowed award fees of 15 percent.19 We recognize that fee amounts reflect the level of
risk associated with a program. Given the high-risk nature of NPOESS, a relatively high award
fee percentage may be warranted. However, a fee of 18 percent appears excessive, especially
when the contractor automatically receives a base fee of 2 percent.20 NOAA and EXCOM
should reassess whether a fee pool of 20 percent of estimated costs is appropriate.

Rewarding unsatisfactory performance undermines goal of award fee contracts

As mentioned earlier, award fees are intended to motivate a contractor to strive for excellence in
such performance areas as quality, timeliness, technical ingenuity, and cost-effective
management. Paying $10.6 million in award fees when the contractor’s performance was rated
unsatisfactory, as happened in period 6, clearly sends the wrong message. In addition, by paying
over $54 million for performance rated less than excellent, the fee determining official has
diluted the motivational effectiveness of the award fees. NOAA and EXCOM should consider
whether any fees should be paid for less than excellent performance, in particular, for
unsatisfactory performance.

Fee rollover may compromise integrity of award fee process

In the award fee context, “rollover” is the process of moving unearned fees from one evaluation
period to a subsequent one, thereby giving the contractor additional opportunities to earn the
unused amount. In its review of award fee contracts, GAO criticized Defense’s use of this
practice, citing excessive reliance on rollover as another indication of the agency’s reluctance to
withhold fees.21 While rollover can be an important mechanism for maintaining leverage with
contractors, GAO noted that recent award fee guidance issued by the Air Force, Army, and Navy
states that this practice should rarely be used so as to avoid compromising the integrity of the
award fee evaluation process.22

Under the NPOESS contract, the fee determining official has rolled over unearned fee in four of
the first six periods. NOAA and EXCOM should consider whether the integrity of the award fee
process is in any way compromised by continually allowing the contractor to earn previously
unearned fees.


19
    GAO-06-66, page 12.
20
    It should be noted that 63 percent of the sample of award fee contracts in the GAO report did not allow base fee at

all.

21
    GAO-06-66, page 20.

22
   Ibid.


                                                     21                                                       

U.S. Department of Commerce                                                                    OIG-17794-6-0001

Office of Inspector General                                                                           May 2006


C. Program Management and Fee Determining Responsibilities Should Be Segregated

The NPOESS fee determining official is the same individual who serves as the program director,
and therefore may have difficulty being completely objective when setting fee awards. The
program director is responsible for the day-to-day management of the program and is under great
pressure to demonstrate progress on NPOESS. Therefore, his objectivity in determining the
amount of award fees may be questioned, as a low award fee amount could be seen as evidence
of a troubled program.

Award fees routinely exceeded amounts recommended by Award Fee Review Board

As part of the award fee decision process, IPO staff at all levels enter their comments about
contractor performance into an electronic database. At the end of each evaluation period, the
comments and the contractor’s assessment of its performance in that period are brought before an
award fee review board, which includes key IPO personnel. The board deliberates and each
member rates the contractor’s performance against the management, technical, and cost criteria.
The scores are averaged, and the resulting number—along with a detailed briefing—forms a
recommendation for award fee amounts that is presented to the fee determining official. The
official considers this information as well as the contractor’s self-assessment (as allowed by the
plan) and other pertinent data, and sets a fee amount. We found that for fee periods 2 through 5,
the official’s rating of the contractor’s performance was consistently higher than that of the
board.23

       Table 6. Contractor Scores By Period
       Period     Award Fee              Rating                  Fee            Rating            Difference
                    Review                                  Determining                              (%)
                  Board Score                              Official’s Score
                     (%)                                         (%)
                                                                              Fully             [text removed]
          2      [text removed]      [text removed]              89
                                                                              Satisfactory
          3      [text removed]      [text removed]              94           Excellent        [text removed]
          4      [text removed]      [text removed]              92           Excellent        [text removed]
          5      [text removed]      [text removed]              82           Very Good        [text removed]
          6      [text removed]      [text removed]              48.25        Unsatisfactory   [text removed]

For period 5, the difference between the two recommendations was significant ([text removed] ). The
                                                           [text
divergence between the board’s recommended rating of removed]    percent and the fee determining
official’s recommendation of 82 percent was particularly controversial since it was during this
award period that the contractor finally acknowledged the problems with VIIRS would delay the
launch of the NPOESS satellites. The fee determining official explained his deviation from the
board’s recommendation as follows:

      •    Individual board members’ scores ranged from 0 to 93 percent.
      •    Results were biased by two NASA members concentrating on their own “narrow view”

23
     There is no board data from period 1.


                                                      22                                                

U.S. Department of Commerce                                                                 OIG-17794-6-0001

Office of Inspector General                                                                        May 2006


         of impacts of instrument schedule problems.24
     •   Other members also focused on very narrow areas.
     •   Several areas were going well.
     •   Formal recovery plans were actively being worked with the IPO.
     •   Prudent actions to further reduce risk while plans are in preparation were being taken.

Overall, the official determined that the contractor “met a majority of the objectives outlined in
the Award Fee criteria and the multiple significant shortfalls identified during the period were
being addressed with corrective action plans and additional actions to make them fully
executable.”

The fee determining official’s evaluation does not address the continued decline of the program,
as evidenced by the earned value measures for period 5, which as mentioned, showed NPOESS
moving from 5 percent behind schedule to 6 percent, and from 10 percent over budget to 15
percent, and the Space Segment moving to 9 percent behind schedule and 23 percent over
budget. In light of those declines and the realization that the VIIRS problems were going to delay
the satellite launch, even the board’s rating of [text     percent appears questionable.
                                                      removed]

Segregating responsibilities for program management and fee determination could improve
award fee process

GAO reports that at the Department of Defense, the fee determining official is generally at a
higher level organizationally than those directly involved in evaluating the contractor—typically
a program executive officer25 who has broad responsibility for a portfolio of related programs,
but does not directly manage any of them. Segregating the position of fee determining official
from positions involved in day-to-day program management theoretically enables that official to
be more objective when making award fee decisions. While the NPOESS program director was
supposed to have authorities similar to those of a program executive officer, during the period we
reviewed, NPOESS was the only program under the director’s purview and he was intimately
involved in its daily management. Failing to separate these responsibilities appears to have
jeopardized the objectivity of the process. NOAA should work with EXCOM to assign fee
determining responsibility to an official who is not involved in the direct day-to-day
management of NPOESS.

Recommendations

The Deputy Secretary should ensure that the Under Secretary for Oceans and Atmosphere in his
role as a member of the EXCOM works with the other members of the EXCOM to:

(1) Critically review and revise the NPOESS award fee plan, taking into consideration whether


24
   Our review revealed that this was not the case. It was actually one NASA and one NOAA member who scored the 

contractor very low. 

25
   GAO-06-66, “Defense Acquisitions: DoD Has Paid Billions in Award and Incentive Fees Regardless of

Acquisition Outcomes,” December 2005, page 8 (footnote 7). 




                                                 23                                                   

U.S. Department of Commerce                                                         OIG-17794-6-0001

Office of Inspector General                                                                May 2006


   •	   interim fees should be paid when mission success milestones are being missed,

   •	   the plan provides adequate incentives for tasks that are critical to the program’s success
        and/or are high risk,

   •	   fee amounts (i.e., up to 20 percent of the contract’s total estimated costs) are excessive,

   •	   the contractor should receive fees for unsatisfactory performance, and

   •	   rolling over fees to subsequent award periods is appropriate.

(2) 	Assign responsibility for determining fee awards to an official who does not directly manage
    the NPOESS program.

NOAA’s Response

In its response, NOAA generally criticized the draft report’s second finding (1) for failing to
fully characterize the award fee structure of the NPOESS contract, (2) for not adequately
recognizing that the NPOESS contract was a DoD contract and therefore subject to the rules,
regulations and oversight of the Air Force, not the DOC, and (3) for failing to consider the
March 29, 2006, DoD policy on the administration of award fees.

OIG Comments

With regard to NOAA’s first concern, we believe the report carefully, accurately, and correctly
describes the NPOESS fee structure. In its written response, NOAA provided some general
information about the fee structure, all of which is already included in the report. It also noted its
belief that the structure was commensurate with the program’s complexity and the risk level
inherent in the baseline program. While we agree that the NPOESS program is complex and
have clearly noted the impact its high-risk nature could have on the fee amount in the report, we
believe it is fair—if not essential—to at least question the decision to allow an award fee pool of
up to 20 percent, particularly in light of the fact that such an amount is unusual even at the
Department of Defense, where high-risk, complex programs are not uncommon.

With regard to NOAA’s second point, the first page of the report’s executive summary clearly
states that “[i]n August 2002, the IPO, using DoD’s contracting authority, awarded a single
satellite integration contract worth $4.5 billion to a prime contractor…” Furthermore, our
description of the IPO structure clearly indicates that DoD has lead responsibility for acquisition
matters. We therefore made no changes to the report to address this concern. In addition,
although the contract may have been awarded according to DoD rules and regulations, given that
half of the program’s funding comes from the Department of Commerce, we believe it is
appropriate for us as well as for NOAA and the Department to examine the management of the
contract’s award fee.

Finally, we are pleased to acknowledge the new DoD policy on award fee contracts, which
resulted from the December 2005 GAO review of award and incentive fees at DoD that we



                                             24                                               

U.S. Department of Commerce                                                        OIG-17794-6-0001

Office of Inspector General                                                               May 2006


discuss in our audit. That policy addresses many of the issues we raised with regard to the
NPOESS award fee structure and, if it is implemented in the NPOESS contract, should address
our concerns about the need for adequate incentives for high-risk, critical tasks, with rolling over
unearned fees to subsequent periods, and with paying fee for unsatisfactory performance. The
policy does not address all of our concerns, however. Specifically, it is silent on the issue of
whether interim fee should be paid when mission success milestones are missed and on whether
the award fee amount for this contract is excessive. In addition, as our report notes, one of the
reasons we raised all of the issues about the NPOESS award fee structure is so that NOAA could
properly consider those issues when crafting award fee plans for future major acquisitions.
Given the fact that NOAA is currently engaged in its first major satellite acquisition, we thought
it critical to bring the problems we found with the NPOESS fee structure to its attention.

In its response to our first recommendation for this finding, NOAA indicated that, in light of the
new DoD policy on award fee management, the EXCOM will review the current award fee
structure to determine the specific changes needed to ensure compliance with the DoD policy.
As noted previously, the DoD policy does not address all of the issues we raised with regard to
that structure. NOAA’s response therefore fails to address what changes the Under Secretary for
Oceans and Atmosphere, will recommend to the EXCOM to address our concerns about whether
interim fee should be paid when mission success milestones are missed and whether the award
fee amount for this contract is excessive.

NOAA’s response to our recommendation concerning the responsibility for determining fee
awards indicated that the EXCOM has already addressed this recommendation with the proposed
establishment of the PEO. If this position is established and the PEO is not directly responsible
for managing the NPOESS program, that action should meet the intent of our recommendation.




                                             25                                             

U.S. Department of Commerce                                         OIG-17794-6-0001

Office of Inspector General                                                May 2006


                                                               APPENDIX I



            EXCERPTS FROM MONTHLY REPORTS TO EXCOM
               DESCRIBING VIIRS-RELATED CONCERNS




                         [Text from this entire appendix has been
                                        removed.]




                                       26                                   

U.S. Department of Commerce        OIG-17794-6-0001

Office of Inspector General               May 2006





                              27           

U.S. Department of Commerce        OIG-17794-6-0001

Office of Inspector General               May 2006





                              28           

U.S. Department of Commerce         OIG-17794-6-0001

Office of Inspector General                May 2006





                              29

U.S. Department of Commerce        OIG-17794-6-0001

Office of Inspector General               May 2006





                              30           

U.S. Department of Commerce        OIG-17794-6-0001

Office of Inspector General               May 2006





                              31           

U.S. Department of Commerce        OIG-17794-6-0001

Office of Inspector General               May 2006





                              32           

U.S. Department of Commerce        OIG-17794-6-0001

Office of Inspector General               May 2006





                              33           

U.S. Department of Commerce        OIG-17794-6-0001

Office of Inspector General               May 2006





                              34           

U.S. Department of Commerce        OIG-17794-6-0001

Office of Inspector General               May 2006





                              35           

U.S. Department of Commerce                                                     OIG-17794-6-0001

Office of Inspector General                                                            May 2006




                                                                                 APPENDIX II

                                           GLOSSARY


             AA/NESDIS        Assistant Administrator for NESDIS
             CPI              Cost Performance Index
             CrIS             Cross-track Infrared Sounder
             DoD              Department of Defense
             EMD              Engineering and Manufacturing Development
             EVMS             Earned Value Management System
             EXCOM            Executive Committee
             FAR              Federal Acquisition Regulation
             GAO              Government Accountability Office
             IPO              Integrated Program Office
             IPT              Integrated Product Team
             MOA              Memorandum of Agreement
             NASA             National Aeronautics and Space Administration
             NESDIS           National Environmental Satellite, Data and Information Service
             NOAA             National Oceanic and Atmospheric Administration
             NPOESS           National Polar-Orbiting Operational Environmental Satellite System
             OIG              Office of Inspector General
             POES             Polar-orbiting Operational Environmental Satellite
             SPI              Schedule Performance Index
             VIIRS            Visible Infrared Imager/Radiometer Suite




                                             36                                          

[text removed]   [text removed]
